     ~

     NATIONAL 

     ARCHIVES 

      OFFICE of
 INSPECTOR GENERAL

     Date           June 28, 2011
     Reply to
     Attn of        Office ofInspector General (OIG)

     Subject :      Management Letter 01 11-01: Unsupported

     To         :   David S. Ferriero, Archivist of the United States (N)

                                                                                        F;UI.<V«.,   to share a concern
                                                                                                                  onNARA's




            use
     NARA's continued use of" n C',,.W\c.rl.,.ri
     NARA is taking to replace software ...... ~'.......    F,   tl,rr·"·t..~,rr,,>,,


     The purpose ofthis management letter is to
     claim was substantiated in that we
                               and the vast maJonty                     to                     use
                            a result, software updates including critical security updates f r o m _
     are not       applied to these pes. We found that management in the Office ofInformation
     Services (NH) I has been aware of this condition for some time and that, while some ~
     been taken to mitigate the increased risk resulting from this condition, a replacement _
     _       has not yet been identified. On April 7, 2011, we sent an email message to the Deputy
     ChleTinformation Officer (DeIO), requesting additional information about this matter. On April
     13,2011, we received a written response from the DeIO. We have referenced responses to our
     questions in this management letter where appropriate and have attached a complete copy ofthe
     DelO's response.


     I Issues identified in this management letter initially arose prior to the agency-wide reorganization. Thus, a
     determination was made to employ acronyms and titles which existed at that time.



 NATIONAL ARCHIVES              and
 RECORDS ADMINISTRATION

8601 ADELPHI ROAD. ROOM 1300
COLLEGE PARK. MD 20740·6001
      WIVW.     arehives.go v
Majority of workstations connected to the NARA network u s e _ that is no
longer supported by the manufacturer




We u s e d _ a network management tool installed on the NARA
determin~onnected to the network are .
                   and, if so, how many pes are using
                 w()rk:sta1ti'lons connected to NARA
                     . In fact, as ofJune 13,2011, the
          rorJk:statl()ns deployed. For these workstatIons,
hundred and nine (4,709) of the workstations use the unCllt'\T\r,rrp'"
                   that two-hundred sixteen
                    and that two (2) use

.Use of an unsupported operating system increases risk to the ~etWork'

The primary concern                                  is that, since pes connected to the NARA
network are                                       these workstations would no longer receive
software updates.                                include critical security updates that
vulnerabilities and can help protect computers f r o m _ and
As a result, it has long been accepted in the IT secur~ying v .........,..,                   IS one
of the most effective ways of reducing the risk of malware incidents and that many instances of
malware have succeeded because systems were not patched in a timely manner.

We u s e d _ to examine the state of patch aPl)ll(;aIlIOn
network. ~at, in the period leading up to
           patches that were categorized as
                 that was released
                            was apphe to
                           network and was not applied to fifty-five (55) workstations.
                            rt..,,,,,,_,,,..-..­ of being applied to pes connected to the
                                                     released the                 to address
vulnerability affected PCs                                                                                      did not
release a patch
which this critical
thirty four (134) PCs connec:IeO     the network. We           iUvUUU,",'   Tr"urn.'_"'·V .... ·'lTf'lnp"


critical                                    in_since
                                        not ide~stance m               more
                          connected to the NARA network received the patch.

We requested information on risk mitigation in our questions to the DCIO. In his response, the
D~CO  re orted that NH has taken several steps to address the additional risks'    .
an                   mitigation strategy, upgrading all public access PCs
an contmuing to review the matter on a weekly basis. With respect to                           the
DCJO provided the following information:

    "Since_went out!!!       osu ort,_ critical patches 2 have been released. Since these patches
    addres~abilities to               , they may not all apply to our environment. NITTSS has a
    process to review the patc re eases for remediation strategies in our environment. Mitigation
    strategies have been applied to remediate vulnerabilities for. of the patch releases. Possible
    workarounds have been identified for" others, but need~e reviewed for business impact
    before moving forward with the reme~n. The remaining workarounds would have an
    unacceptable impact to the functionality and NARA is accepting the risk."

NH is considering options for replacing the u n s u p p o r t e d _



were UU.~"'H"''''
_      as possible replacements for
We were also advised that testing
(meaning that testing would be completed
recommendation would be provided to the

NH Management has delayed the selection and deployment of a supported _
_    because of other priorities




                                 when it was released in


2 It should be    that we did not attempt to reconcile the number of critical patches that we identified in our
examination                               critical patches) with the number of critical patches reported by the Deputy CIO
in his response              r - ..... _ .. r Further, we did perform additional research as part of this inquiry into the
remediation        employed by NH as described in the Deputy CIO's response.
                                                                                  and received the


    "The Office ofInfonnation Services (NH) has a fundamental assumption with regard to
    managing risk that is outlined in NARA's Enterprise Architecture (EA). Specifically,


    an               of new technologies ... ' However, NH did consider upgrading    to_
    Assumption 1 - We will manage IT risk with the rationale being that' ... NARA prefers a
    conservative approach to IT system deployment ... ' and 'NARA generally does not want to be

                     as part of the PC refresh project. This was reviewed with the NH TRG on
                         However, at this point it w a  sill
                                                          si!enerally
                                                               !
                                                                                                 in

                                                                      considered too early to deploy
                   concerns about the initial release 0          and the impact it would have on
            our critical business applications because 0     own issues with_"




Conclusion

                                       ofPCs connected to the NARA network use the
                                                  We confinned
                                     as a       PCs using
                                  including critical securityUU"UlLv':>.


,do not receive               s are at an increased risk from
_           We detennined that NH has taken steps to mitiga~e       '"      '"",          '," " ' "
~iness and effectiveness of an internal remediation process as compared to regular seourity
 updates from            NH                           that they are taking steps to evaluate possible
                                                but that no decision has been made on a replacement
                                              evaluation process will not be completed untilII
                                     !!!§~~lnelt1t that they have been         . for the replacement
                                                        for almost             but have delayed the
                                                                                concerns about the


I have referred this issue to my Office of Audit for consideration as part of the audit planning
process. Should you have any questions or require any additional infonnation about this matter
after you have had an opportunity to review this management letter, please e-mail me or Ross
Weiland, AlGI, or call us at (301) 837-3000.




                                                     Paul Brachfeld
                                                     Inspector General
The attachment to Management Letter OJ 11-01 has been redacted in full.
